No. 21-

 

In THE
Supreme Court of the United States

MONTGOMERY COUNTY,
MARYLAND,
Petitioner,

Vv.

‘YASMIN REYAZUDDIN,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,010 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2021.

Colin Coad Hogan

Wilson-Epes Printing Co., Inc.
